LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 31, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-292: ROXANNE TORRES V. JANICE MADRID AND RICHARD WILLIAMSON
Dear Sir or Madam:
I hereby certify that at the request of Counsel for the Petitioner, on January 31,
2020, I caused service to be made pursuant to Rule 29 on counsel for the Respondent:
RESPONDENT:
Mark D. Standridge
Jarmie & Rogers, P.C.
P.O. Box 344
Las Cruces, NM 88004
(575) 288-1453
mstandridge@jarmielaw.com
This service was effected by depositing three copies of the Brief for Petitioner
and Joint Appendix in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of January 2020.

